CERTIFICATE OF WORD LIMIT
In accordance with the 9000 word petition for writ of certiorari limit the
undersigned declares the corrected petition for writ of certiorari instantaneously
filed herewith contains less than 9000 words or 3672 words.
Dated: October 17, 2019
Respectfully submitted,

/[a*
ROBERT L. JARRETT, JR.
103 W. 4th Street # 302
Los Angeles, California 90013
(323) 326-7220

Page 2

i

r •*

f

Case No.

in The united states supreme court
ROBERT L. JARRETT, JR.
Petitioners,
vs.
CLERK OF THE COURT Office of the State Bar, GENERAL COUNSEL
State Bar of California, OFFICE OF THE COURT CLERK
CALIFORNIA SUPREME COURT
Respondents.

CERTIFICATE OF WORD LIMIT, LETTER, AND PROOF OF SERVICE

ON CORRECTED PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEAL FOR THE NINTH CIRCUIT
ROBERT L. JARRETT, JR.
103 W. 4th Street # 302
Los Angeles, California 90013
(323) 326-7220

RECEIVED
OCT 2 2 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

\

Page 1
/.

